HHS/OIG-Audit--"Quarterly Credit Balance Reporting Requirements for Medicaid, (A-05-93-00107)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Quarterly Credit Balance Reporting Requirements for Medicaid,"
(A-05-93-00107)
May 4, 1995
Complete Text of Report is available in PDF format
(2.1 mb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This final report found that States are not adequately monitoring Medicaid
overpayments to providers. We found that 19 State agencies do not have any method
to identify Medicaid credit balances and recover overpayments. We recommended
that HCFA establish a national Medicaid credit balance reporting mechanism similar
to the Medicare Part A credit balance reporting procedures. The HCFA should
consider modifying the Medicare procedures to make them viable for the Medicaid
program. Further, HCFA should allow individual States the option of an exemption
from or adjustment to the basic reporting system. We also recommended that HCFA
regional offices actively monitor the national Medicaid credit balance reporting
mechanism. The HCFA agreed with our recommendations.